<html>
<title> - STEP OR STUMBLE: THE OBAMA ADMINISTRATION'S PIVOT TO ASIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]











       STEP OR STUMBLE: THE OBAMA ADMINISTRATION'S PIVOT TO ASIA

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 6, 2016

                               __________

                           Serial No. 114-239

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE 

22-865 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Richard J. Ellings, Ph.D., president, The National Bureau of 
  Asian Research.................................................     6
Derek M. Scissors, Ph.D., resident scholar, American Enterprise 
  Institute......................................................    20
Ms. Kelley Currie, senior fellow, Project 2049 Institute.........    33
Mr. Barry C. Lynn, director, Open Markets Program, New America...    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Richard J. Ellings, Ph.D.: Prepared statement....................     9
Derek M. Scissors, Ph.D.: Prepared statement.....................    23
Ms. Kelley Currie: Prepared statement............................    36
Mr. Barry C. Lynn: Prepared statement............................    43

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
Richard J. Ellings, Ph.D.: Revised prepared statement............    64
Mr. Barry C. Lynn: Material submitted for the record.............    75

 
       STEP OR STUMBLE: THE OBAMA ADMINISTRATION'S PIVOT TO ASIA

                              ----------                              


                       TUESDAY, DECEMBER 6, 2016

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2172, Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. Good afternoon. The committee will come to 
order. The written statements will be included in the official 
hearing record. And without objection, the hearing record will 
remain open for 5 calendar days to allow statements, questions 
and extraneous materials for the record, subject to the length 
limitation in the rules.
    Today marks my final hearing as chairman of this important 
subcommittee. It is truly an honor to have served on this 
subcommittee with my fellow distinguished members. My time as 
chairman, focused on the world's most dynamic region, has been 
punctuated with memories of meeting countless dedicated policy 
and business professionals, insights that I will carry with me 
beyond my tenure here on the grave--here on the Hill. Did I say 
grave? And hopefully, leaving a lasting mark on our Nation's 
Asia policy.
    As the United States undergoes a notable transition, I 
convene this hearing to review the current administration's 
policy toward Asia, and to determine what tangible 
accomplishments the United States has made. More importantly, 
we will also form suggestions for the new administration's 
policy toward Asia.
    We have come to the end of an administration whose 
signature foreign policy initiative has been a rebalance to the 
Asia-Pacific. I have long championed enhancing our engagement 
with the Asia-Pacific and our friends and our allies in the 
region. They have welcomed the rebalance as a strengthening of 
our regional relationships. But after 8 years of enhancing U.S. 
efforts in Asia, serious challenges to U.S. interests persist, 
and some of them have even grown. Today, I note that our 
posture in Asia is not what we hoped for when the pivot was 
introduced.
    The TPP. As we reflect on the outgoing Obama 
administration's efforts in Asia, the Trans-Pacific Partnership 
may be end up being the administration's most lasting failure. 
The administration chose to use this economic agreement as our 
strategic anchor in Asia and tried to market the deal at home 
by saying that it would allow us to write the rules for free 
trade. Now, the prospect of TPP ratification in the United 
States is effectively dead, and our closest Asian partners are 
questioning the endurance of our leadership in the region.
    This debacle endangers U.S. prestige in Asia, and it didn't 
need to happen. The administration's own arguments implied that 
China is now in a position to write the rules. And our national 
reputation has taken a hit, because the administration tied it 
to TPP without first establishing a national consensus by 
addressing deep domestic concerns about the potential impact on 
our economic viability.
    As the next administration considers its economic and trade 
ties with Asia, it may now be better to approach negotiations 
bilaterally, perhaps starting with Japan. If we begin the 
bilateral process with Japan, we may be able to add other 
modern economies in the dialog in a more feasible approach 
directed at a core group.
    Without a concerted economic engagement with all parts of 
Asia, China will fill the void with its willingness to fund 
much-needed infrastructure without regard to intellectual 
property, labor and environmental standards. China has been, 
and will continue to be, a land of contradictions, of 
challenges and opportunities. The need to strike a proper 
balance of working together on economic prosperity, with a 
willingness to stand firm when necessary, will continue under 
our President-elect's tenure.
    Our business community and economy are under threat from 
regulations and policies designed to favor Chinese interests 
and domestic champions. Threats from cyber-enabled economic 
espionage and intellectual property theft continue unabated. 
The current administration has been more willing to make 
concessions and seems fearful of provoking China. I have been 
alarmed to witness the escalation of infringement on Hong 
Kong's self-governance and basic law with little to no U.S. 
pushback. Many in Congress have been similarly unsatisfied with 
the administration's halfhearted efforts to address Chinese 
human rights abuses and regional aggression, particularly with 
respect to the South China Sea.
    Our regional allies and friends continue to call for 
further U.S. engagement and assistance. And it is my 
expectation that the next administration will seek to provide 
substantive reassurance to the region.
    Taiwan. A lot of hoopla about Taiwan in the last few days. 
China has also been increasingly unreasonable toward Taiwan, 
which is in a more precarious position than ever. I was able to 
attend Tsai Ing-wen's swearing in. That was the third president 
of Taiwan that I have been able to attend the swearing in. I 
attended Lee Teng-hui's, the first truly elected president of 
Taiwan. I then attended Chen Shui-bian's, and I was able to be 
at Tsai Ing-wen's, much over the objections of some of the 
folks here. I was, I think, was the highest ranking Member of 
the Congress to--actually, I think I was the only Member of the 
Congress that I attended. After completing yet another 
successful democratic transition, Taiwan continues to prove 
that a free flourishing economically successful Chinese 
democracy in civil society is possible.
    The surprise over President-elect Trump accepting a call 
from President Tsai Ing-wen has been an unnecessary 
distraction. The fact is, we are economically and militarily 
engaged with Taiwan as directed by the 1971 Taiwan Relations 
Act, and a phone call between principals should not garner such 
outrage.
    I am further dismayed that the same Washington elites and 
press corps that hailed President Obama a hero for meeting with 
Iran's President Rouhani, a key supporter of terrorism across 
the globe, would become so distraught over a phone call. I 
fully expect that President-elect Trump and President Tsai will 
have a productive relationship that benefits both of our 
economies.
    North Korea will continue to be a challenge that we must 
face head on. This has been one of the ultimate blunders of the 
Obama administration in Asia, the so-called strategic patience 
approach to North Korea. While Kim Jong Un has conducted 
increasingly powerful nuclear and ballistic missile tests, we 
have not seen anything that could be described as a strategy. 
If the past gives any indication of what to expect, North Korea 
could soon conduct another substantial provocation to welcome 
the U.S. President to office. Congress has been vigilant about 
applying pressure on the DPRK, and I anticipate that it will 
continue to look forward to new levers to stop North Korea's 
belligerent and dangerous behavior. Sanctions efforts led by 
Chairman Ed Royce have helped squeeze the DPRK from vital 
funding sources. Still, more can and has to be done, such as 
further cooperation and intelligence sharing between our 
allies, the Republic of Korea and Japan.
    In addition, more can be done to increase the flow of 
information into North Korea. We can do much more to assist the 
people of North Korea to understand the truth of their reality. 
North Korea and provocation should always be met with 
resistance, and I look forward to a new strategy on this front.
    This year, the administration's relationship with a long-
time ally, the Philippines, fell apart. Newly elected President 
Duterte came out strongly in opposition of the United States. 
He has appeared to use the media to pit the United States 
against China, in an effort to renegotiate the long-standing 
alliance structure. Despite the trend of late, I am heartened 
to see that the Philippines President, and President-elect 
Trump, have shown each other mutual respect. And I am hopeful 
that this pivotal alliance will be rekindled from the top down 
and remain the force for good that it can be.
    India. The administration halfheartedly sought to include 
India in the pivot, but the deep well of potential in our 
bilateral ties remains untapped. India struggles with 
infrastructure challenges, energy issues and difficult 
neighbors, but the two world's largest democracies are natural 
partners. There is a strong appetite within the United States 
to encourage India to take a stronger leadership role within 
the region. Leadership does come with responsibilities. As 
India seeks to garner closer commercial and defense relations 
with the U.S., it must take steps toward important reforms that 
will lay the foundation for increased ties.
    I am skeptical that our interests in Asia have been 
substantially advanced over the last 8 years. The outgoing 
administration spoke often of intentions to refocus its efforts 
in Asia, but left nearly everything undone. Its landmark trade 
deal has failed. Being patient with North Korea has made us 
less secure. We have lost footing with a longtime ally in the 
Philippines, and our security guarantees throughout the region 
have been called into question by destabilizing actors. Looking 
ahead, I am very optimistic that the new administration, along 
with what I hope will be a unified Congress, can rebuild 
efforts in Asia, provide for a robust regional security, and 
promote lasting U.S. prosperity.
    I am going to turn to the gentleman from California, Mr. 
Bera, to see if he would like to make an opening comment or 
two.
    Mr. Bera. Certainly. Mr. Chairman, I would like to take 
this opportunity to thank you for your work over these last 2 
years. Your leadership, your understanding of the region, your 
fluency in the Chinese language has been great. It has been a 
pleasure to travel to India, to China and to Taiwan with you. 
So we are going to miss that expertise and we are going to miss 
that leadership, and it really has been a pleasure for this 
Member of Congress serving with you, and I look forward to--
hopefully, you will stay engaged in the region if opportunities 
present themselves to continue to stay engaged, but the best of 
luck in the future, and I do hope to continue working with you 
in that.
    I will leave my further statements for the hearing. So 
thank you.
    Mr. Salmon. I thank the gentleman. I recognize the other 
gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Let me 
just note what an honor and pleasure it has been to work with 
you as friends and colleagues and patriots, trying to do what 
is best for our country and just--you will be missed and we 
hope that things go well. Let me just say we all are here for a 
short period of time. Our goal is--hopefully our goal has been 
to help make things better for the United States of America. 
Some people think our goal is to focus on making it a better 
world. That certainly is something positive, and that is, 
frankly, perceptions of what is good for the whole world is not 
necessarily what is good for the United States of America.
    And we even have a new President who has made it very clear 
that that will be his criteria, what is good for the people of 
the United States of America. In that regard, I would suggest 
that in your area, you have so ably overseen in these last few 
years, that I would give the administration a D, I wouldn't 
give them an F, I would give them a D. And as the chairman just 
noted, what is going on with actions and hostile posturing and 
belligerency on the part of China has increased. North Korea's 
threatening behavior, as well as its actual arrogance, in 
dealing with the issue of nuclear weapons. Again, much more 
threatening than it was. And then we have the crumbling of our 
long-term relationships with Malaysia and with the Philippines. 
This, overall then, this pivot to Asia, that has been--in and 
of itself, has been a failure, but overall, I give the 
administration a D. And looking forward to hopefully next year, 
even on the other side of the aisle if they want to give it a 
rank, then maybe we will have an A. Let's see if we can all 
work for that.
    Mr. Salmon. The chair recognizes the former chairman the 
subcommittee, Mr. Chabot.
    Mr. Chabot. Thank you very much, Mr. Chairman. I want to 
begin, again, by some of my colleagues who said thanking you 
for your years of service to this House, and especially for 
your stewardship of this committee. And I know that you know 
you had big shoes to fill when stepping into this role, they 
were mine. But you handled it very, very well, and have done a 
great job as chair of this committee. So I want to thank you 
for that. And we wish you the best of luck. I am sure you are 
going to be very successful in whatever it is. Have you decided 
yet? Or are you going to make an announcement here today?
    Mr. Salmon. I don't know, I was going to try to be 
Secretary General of the U.N. What do you think?
    Mr. Chabot. Would you want that job?
    Mr. Salmon. Not on your life.
    Mr. Rohrabacher. See what we can do.
    Mr. Chabot. Secretary of State Rohrabacher. But in any 
event, the pivot, to get to the topic at hand here, I think it 
has been one of the most frequently and poorly defined phrases 
of the Obama administration. Some experts have argued that it 
has been little more than an empty slogan. I hate to say that I 
tend to agree with that. The pivot has really been a sorry 
excuse for strategy. It has merely been a hodgepodge of 
contradictory ideas that is, without question, signaled 
indecision and weakness to challengers from Beijing to 
Pyongyang to Moscow.
    The past several years have been especially disconcerting, 
particularly the administration's handling of China's growing 
assertiveness from building islands to now militarizing them. 
We failed to effectively stand up for our allies in the region, 
such as Taiwan. And I have to say, although I know some folks 
have been concerned about that, upset about that, I say more 
power to him for having taken that call. And Chinese bullying 
has to stop, and it has gotten worse and worse in recent years, 
and I think this administration has done little to push back on 
that. And I don't think you reward bad behavior, and I think 
that is what has been happening. Beijing's behavior has been 
more and more reprehensible, and it has been not nearly enough 
pushback.
    And as I am sure all my colleagues believe, you know, we 
don't want to see any sort of military action in that part of 
the region. But as Ronald Reagan believed, it is through 
strength that you continue with the peace. Weakness invites 
military action in war, and I think that is what is happening 
now. And so I commend President-elect Trump for taking that 
call. I look forward to hearing the witnesses' testimony this 
afternoon, and I yield back.
    Mr. Salmon. Thank you. Did any of the other committee 
members wish to make an opening statement? If not, then we go 
to the panel, we are really thankful to be joined today by Dr. 
Richard Ellings, president of the National Bureau of Asian 
Research. Great to see you again.
    How is your wound from your baseball tournament? Are you 
doing better?
    Mr. Ellings. Broken thumb, but I'm here.
    Mr. Salmon. Well, I am glad to see you.
    Dr. Derek Scissors, resident scholar----
    Mr. Ellings. Too much information.
    Mr. Scissors. I have no injuries.
    Mr. Salmon. No injuries? Good. I don't think you would tell 
us if you did.
    Ms. Kelley Currie, senior fellow at Project 2049
    Institute. Great to see you again. And Mr. Barry Lynn, 
director of New America's Open Markets Program. We thank the 
panel for joining us today to share their experience and 
expertise.
    And I am going to start with you, Dr. Ellings. Would you go 
ahead and turn your microphone on. And you all know the drill? 
When it turns amber, it is time to wrap up. I think you have 
about a minute to wrap up. I don't have a heavy gavel, but we 
don't have the power of the filibuster over here in the House, 
so you can't go on forever, so that is the drill. Thank you.
    Go ahead Dr. Ellings.

STATEMENT OF RICHARD J. ELLINGS, PH.D., PRESIDENT, THE NATIONAL 
                    BUREAU OF ASIAN RESEARCH

    Mr. Ellings. Chairman Salmon, Congressman Bera, when he 
gets here, Ranking Member Sherman and other extraordinarily 
distinguished members of the committee, it is an honor to share 
of my personal observations and views that are outlined in my 
written testimony. I plan to get through them quickly before 
they become obsolete. You know, there might be a Tweet. The 
pivot, better called the rebalance, has been a policy that 
might be termed enhanced more of the same.
    I will make two contextual points, then assess the policy 
and conclude by suggesting some concrete things Congress can do 
working with the new administration.
    First contextual point. For many reasons, this period of 
history appears to be a hinge moment, as someone put it 
recently. It is akin in too many ways to the years immediately 
preceding World Wars I and II, highlighted by the 
industrialization and rise of dissatisfied nationalistic 
authoritarian powers. And yet, it differs from these eras in 
noteworthy ways as well.
    The nuances of this century's principle rising power, 
China. The proliferation of nuclear weapons and America's 
strategic engagement. The remarkable rise, power and ambitions 
of China comprise the central issue. As China watchers like to 
point out, the country has made enormous progress, but has all 
kinds of horrible problems. Its chief problem is that its 
unelected leadership under Xi Jinping is insecure and resorting 
to tighter control, repressive measures, and nationalistic 
appeals to bolster its popularity, capitalizing on historic 
grievances.
    Correspondingly as foreign policies have become more 
aggressive, and at the same time, remain carefully calculated 
and, frankly, farsighted. China has a grand strategy to 
maximize its wealth, space and global influence, and to 
marginalize its most serious competitors, most notably, the 
United States. It has an eye for weak spots.
    For many years, specialists have been predicting political 
crisis, or change, in China, they have been wrong. And yet, 
they are right about the future. But we have no ability now to 
protect when change will happen, or what kind of change.
    Second contextual point. Viewed from a global perspective, 
power, no matter how the measure it, is concentrated heavily in 
the Asia-Pacific. I characterize the balance in the region as 
skewed multipolarity. It is skewed, in part, because China has 
led a one-sided arms buildup.
    Given the uneven dispersion of power, the extraordinary 
pace of change in the balance of power, uncertainty in key 
countries, and increasing questions about U.S. leadership, 
ambiguity also describes the strategic environment. Ambiguity 
is not good. When nations have a difficult time understanding 
their strategic environment, many feel insecure and like to 
expand their allies and defenses. Some nations see 
opportunities to pursue ambitions.
    In times like ours, nations are more prone to making 
calculations that lead to conflict. Our capacity to remain 
strong and committed, to exploit weaknesses in our competitors, 
and to form and sustain effective coalitions, will be the test 
of our leadership.
    A quick assessment of the pivot. The intention to place 
greater policy focus on the Asia-Pacific is great. It is 
terrific, imperative, and goes back decades to the Clinton 
through George W. Bush administrations.
    President Barack Obama's high profile pivot in fall of 2011 
aimed to strengthen our alliances and friendships, engage 
China, bolster regional multiple lateral institutions, expand 
trade and investment, add to our military presence, at least, 
implicitly, in North Korea's nuclear program, advance democracy 
and human rights, a pact, and familiar agenda. But announced at 
full volume and short on specifics.
    After 5 years, it is fair to judge the policy. 
Notwithstanding, a senior State Department official's recent 
statement that, and I quote, ``We're handing the next 
administration a success story in Asia.'' Seriously, that was 
said. ``The pivot and the predecessor policies on balance have 
failed to prepare us for the challenges of today, let alone 
tomorrow.''
    We have not been operating from understanding of the world 
as it actually exists. We have failed repeatedly to understand 
and anticipate Russian intentions and policy, North Korean 
intentions and policy, and most importantly, Chinese intentions 
and policy. Furthermore, I see no evidence that we have 
contemplated strategies to avoid facing some type of Sino-
Russian or Sino-Russian-North Korean-Pakistani coalition if, 
for example, hostilities were to break out in the Korean 
peninsula and in south Asia.
    We are being compelled to position our world-leading 
military forces farther and farther off the Asian coastline. We 
have not come up with an effective answer to China's island-
based building in the South China Sea. We have failed to 
prevent North Korea from achieving nuclear breakout.
    Sequestration has prevented us from investing in many of 
the systems we will need to deter--if deterrence fails, to 
win--a future conflict in the region. In fact, we do not have a 
military strategy for the Asia-Pacific. We continue to treat 
trade with China as normal when the country is persistently 
mercantilists. U.S. companies are increasingly twisted into 
pretzels trying to operate in a market that is now the size of 
America's. Companies try to avoid upsetting the regime. They 
try to protect their IP unsuccessfully, and they compete with 
increasingly strong Chinese companies that are favored in 
myriad and mostly opaque ways.
    Our regional leadership is weaker in part due to the 
apparent demise in the pivot's economic centerpiece, the Trans-
Pacific Partnership. According to a smug daily, China daily 
article published days ago with regard to trade ``China's happy 
to write the rules with all its partners.''
    Any further faltering of our commitment to rebalancing 
would jeopardize, just to name one important example, our 
strategic relationship with India. The hope for a political 
liberalization of China has not developed from its accession to 
the World Trade Organization, or from the world otherwise 
engaging China. Indeed, by most measures, the regime is less 
liberal, more repressive today than any time since it joined 
the WTO. I would like to go when it is possible, when you think 
it is reasonable through a number of specific suggestions that 
answer each one of these issues.
    [The prepared statement of Mr. Ellings follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
       
                              ----------                              

    Mr. Salmon. Thank you very much, Dr. Ellings. Dr. Scissors, 
thank you. I understand this is your second time testifying 
before the panel. Thank you for not letting us not scare you 
off from the first time. We are really thrilled to you have you 
here again.

   STATEMENT OF DEREK M. SCISSORS, PH.D., RESIDENT SCHOLAR, 
                 AMERICAN ENTERPRISE INSTITUTE

    Mr. Scissors. Thank you, Mr. Chairman. I enjoyed the first 
time, and hope I will enjoy the second time. Thank you to the 
committee for having me a second time.
    My remarks are going to be restricted to economics, which 
is, of course, important in our engagement in the region, but 
is only a partial view. I want to state that at the outset.
    On the economic view, the next administration, the Trump 
administration, can do much better than the Obama 
administration did. However, that isn't going to be easy. We 
are caught between, on one hand, a China that is engaged in 
predatory trade that harms the United States, and American 
commitments to open markets and competition that help the 
United States. And while there is plenty of scope for U.S. 
improvement, that does not mean we will be able to carry it 
out. So I will try to address the future more than the past.
    In terms of addressing the past, the Trans-Pacific 
Partnership is the obvious issue on the economic side. I have 
an odd view in America today which is, I didn't like the treaty 
because it didn't liberalize enough, not because it was too 
radical and too pro market.
    I was at the Heritage Foundation for 5 years and at that 
time, I wrote multiple pieces praising the idea of the Trans-
Pacific Partnership and praising the Obama administration for 
initiating it. I thought it was a great idea.
    When I saw the text in November of last year, I changed my 
mind, because I actually read the agreement, which a lot of 
people don't do, if I might say under my breath. Oh, there is a 
microphone. I'm sorry. It did not create the opportunities for 
American workers that all of us at Democrat, Republican, 
conservative, liberal we want, and in particular, the U.S. is 
the most comprehensive services exporter in the world, and 
there are too many exceptions in liberalizing services trade. 
And as a result, I, the International Trade Commission, others, 
do not see gains for the U.S. from services liberalization in 
the Trans-Pacific Partnership.
    I won't spend a lot of time. The point is, the TPP doesn't 
do what we need it to do economically. That is why President 
Obama began to start talking about writing the rules instead of 
economic benefits. He started talking about the diplomatic case 
for TPP. Those are all true. But the number one role of a trade 
agreement is to bring economic benefits through trade, and the 
TPP does not do that. So I will not be sorry to see it go. That 
is one point.
    Turning in the other direction, something that I am worried 
about, I have written about, I wrote in my written testimony, I 
don't want the United States to swing all the way to the side 
of being protectionists. The Trump campaign cited a think tank 
that represents the labor movement, talking about how the trade 
deficits costs U.S. jobs. That is not true. We ran trade 
surpluses during the Depression, it did not help us on the job 
front.
    Our trade deficit plunged in 2009, it did it not help us on 
the job front. Logically when we are rich, we buy more in the 
way of imports, and when we are poor, we don't. If you force 
the trade deficit down, and my colleagues may talk about this, 
you are going to hurt America's rivals. It is true. You are 
also going to hurt America's friends and allies, because we 
trade with them and they are involved in supply chains. You are 
going to damage the global economic system.
    So I am going to talk in a second about sanctions against 
China, because I think there are some that are necessary. I 
don't want us to go too far to become a protectionist country, 
where we think trade balance is good economic goal, because it 
isn't.
    Let's talk about sanctions in China. We can label China a 
currency manipulator; it is a currency manipulator, so it is a 
good label. It won't actually bring back U.S. jobs, because 
when you try to connect China's currency value to U.S. jobs, 
you don't get a connection.
    Where we know the Chinese are harming us is blocking our 
exports. When Americans get cheap imports, at least we get a 
benefit from buying the cheap imports. It helps our consumers.
    When a Chinese or other countries block our exports, there 
is nothing for us but cost. And China does that. It is the 
largest trading country in the world, so it is more important 
when China does it, when Bolivia does it, for example. And they 
protect their state-owned enterprises from competition, and 
that is a serious barrier to U.S. exports, in particular, U.S. 
services exports.
    Reciprocity is a legitimate idea and a response. We 
shouldn't be narrow minded about it, we shouldn't be 
protectionist about it, but we should say, you are going to 
block our trade, we don't have an obligation to allow all your 
trade to occur.
    Another issue that we are all familiar with is IP theft. 
China the biggest stealer of intellectual property in the 
world. Tens of millions of Americans have jobs supported by 
intellectual property; it is not just about high-technology, it 
is about any innovation. We need to act against companies that 
have stolen or--that have received stolen intellectual 
property, not just the thieves which the Obama administration 
did in a small way, but the companies that have benefited and 
compete against American companies because they have taken 
stolen intellectual property from whoever who stole it. That is 
a sanction that needs to go forward.
    Something that I know you all have been discussing, and 
will be discussed in the next Congress, is the Committee on 
Foreign Investment in the United States, Chinese investment in 
the United States generally is beneficial, but there are some 
sectors where we do not want Chinese investment. And so, you 
know, without getting into the CFIUS debate, I would say that 
assigning more resources to reviewing investment is a benefit 
for the United States, both economically and in terms of 
national security.
    I am already being warned, but I do want to talk a little 
bit about positive steps, not just sanctions against China. I 
would welcome the phone call, but I welcome it for a particular 
reason, I think the U.S. could side a FTA with Taiwan. During 
this administration, I think that would be a good idea.
    Japan, as the chairman mentioned, is a superb goal, much 
more complicated, much more difficult, harder politically. 
Taiwan is 23 million people, they are not going to steal 
American jobs, so we have an advantage in talking to Taiwan.
    There are countries, India, Indonesia, Philippines Vietnam, 
these are very rapid growth countries. I would not call for 
FTAs for these countries, they aren't ready, and we aren't 
ready. But trying to improve trade relations with these 
countries would bring economic benefits to the United States; 
there the important countries in the region to focus on 
economically.
    My last point before I stop, we don't normally think of 
corporate tax reform as bearing on the Asia-Pacific, but in 
this case, there are plans in the works that have border tax 
adjustments, and those border tax adjustments will affect our 
trade with the Asia-Pacific, they will affect our partners. Our 
partners will want to know what is going on, they will want 
some input, even though this is a domestic American issue. We 
can have pro-competitive, wonderfully beneficial U.S. corporate 
tax reform. I actually think that this committee and people 
interested in the Asia-Pacific should be part of that 
discussion. Thank you.
    [The prepared statement of Mr. Scissors follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Salmon. Thank you.
    Ms. Currie, you are also back for a second time, so 
welcome, and thank you.

  STATEMENT OF MS. KELLEY CURRIE, SENIOR FELLOW, PROJECT 2049 
                           INSTITUTE

    Ms. Currie. Thank you, Mr. Chairman. And I also want to 
echo the plaudits of your colleagues and your leadership of 
this committee--subcommittee, and note that you will be missed 
and your leadership will be missed. Thank you to all the 
members of the committee. I do want to submit my written 
testimony for the record.
    Mr. Salmon. Without objection.
    Ms. Currie. With one small correction that I have already 
noted to your staff.
    The views that I am presenting today are my own and not 
necessarily those of Project 2049 Institute or its other 
scholars, but I am, nonetheless, grateful for the opportunity 
to share the them with you today.
    Since Donald Trump's election victory last month, there has 
been a great deal of commentary on the future of the Obama 
administration's pivot to Asia. While the focus on the degree 
to which the pivot will continue under Donald Trump is 
important, much of this discussion has tended to focus on hand-
wringing about President-elect Trump, while ignoring the 
serious deficiencies of the Obama administration's policies, 
both in terms of the conceptual failures, and the failures of 
the implementation.
    The whole furor around the call nicely highlighted one the 
most serious conceptual weaknesses of the pivot. The failure to 
link intensified engagement in the Asia-Pacific with 
fundamental principles that historically have undergirded 
successful U.S. foreign policy for decades. These principles 
include privileging relationships with those countries that 
share our fundamental values; basing policy decisions on the 
way the world is, not how we wish it would be; operating based 
on an understanding and appreciation of both the importance and 
the limits of U.S. leadership; and making sure U.S. commitments 
are backed up with serious sense of purpose, and the resources 
necessary to reassure partners.
    The Obama administration was intermittent at best in its 
adherence to these principles in Asia. And this inconsistency 
was tantamount to abandonment for those who rely on American 
strength, and those who seek to undermine it.
    Asia's un-democratic leaders seem to understand 
opportunities are created by the gap between rhetoric and 
reality, and showed a consistent willingness to step into and 
exploit that gap for their own gain.
    Looking around the region, it is hard to argue that on 
balance, there has been an improvement in terms of human rights 
and democracy, the subject I have been asked to speak to on 
today's hearing.
    In particular, in the past 6 years, since the Obama 
administration launched the rebalance, China's party state has 
embarked on the most extensive campaign of repression since the 
cultural revolution, and has firmly closed the door on any 
prospect of political liberalization under CCP rule. Even in 
the Obama administration's poster child for the pivot, Burma, 
the Tatmadaw appears to be engaging in ethnic cleansing in 
Rakhine state, while simultaneously intensifying attacks on 
communities in Kachin and Shan states. Meanwhile, the Obama 
administration, having given away all potential leverage by 
prematurely lifting sanctions on the military, watches 
helplessly as Aung San Suu Kyi struggles with an 
unreconstructed Tatmadaw that has retained control over the key 
levers of power in the country. And I want to note Mr. Chabot's 
excellent work on Burma, and hope that that will continue going 
forward.
    As the Obama administration drops serious U.S. commitments 
to support human rights and democracy across Asia in favor of 
an amorphous people-to-people pillar in the rebalance, abusive 
authoritarian regimes sought not only to normalize their 
behavior toward their own citizens, but engaged in broader 
efforts to normalize such abusive behavior within the 
international system.
    Both the U.S. and the U.N. system have utterly failed to 
address the challenge of authoritarian rights abusing regimes 
that are immune to criticism and international mechanisms. In 
the case of China, the U.N. essentially has given up on its 
human rights mechanisms, so it is little wonder China's 
neighbors view U.N. criticism with thinly disguised disdain.
    By failing to consistently and vigorously stand up for 
human rights and liberal values in the Asia-Pacific, and within 
the international system, the U.S. has created an environment 
where authoritarians feel empowered to argue that their legal, 
political, and moral perspectives are equally valid, or perhaps 
even better choices for the countries of the region and beyond. 
The idea that we can best support democracy and human rights in 
Asia by not talking about them, or by casting our own values as 
just one option among any number of other valid choices has 
proven to be manifestly false.
    Going forward, I would like to make some suggestions on how 
we can craft a more realistic, yet also fundamentally 
idealistic foreign policy toward the Asia-Pacific and broader 
Indo-Pacific region. Such an approach would benefit not only 
the U.S. interest over the long term, but would also support a 
firmer foundation for regional peace and security.
    We should start any deliberation on our policy choices from 
the premise that our values are our interests. When faced with 
competing policy choices, the one that adheres most closely to 
our values should be weighted accordingly. I would also note 
that free trade works best with free nations. Economic freedom 
should be a two-way street, and that is impossible when one 
partner is an authoritarian government. And many of the points 
that Derek has raised relate directly to this premise.
    Our alliances need to move beyond the hub and spokes system 
to become truly networked in a way that revolves less around 
the U.S., and is more based on the reality of regional peace 
and security needs.
    Diplomacy has got to stop meaning we pretend some 
unpleasant situation will just go away on its own, or get 
better if we ignore it, or use misleading euphemisms to discuss 
it with our partners. The U.S. Foreign Service and our 
governance and democracy assistance programs need root-and-
branch reforms to deal with this new reality.
    Finally, I would add that we need to have Congress reassert 
itself as a strong voice in support of human rights and 
democratic values and U.S. foreign policy. Several recent 
policy errors in Asia might have been avoided entirely if the 
administration had treated Congress in a less highhanded 
fashion, and genuinely consulted with its members and staff 
before making policy decisions. Thank you very much.
    [The prepared statement of Ms. Currie follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Mr. Salmon. Thank you very much.
    Mr. Lynn.

STATEMENT OF MR. BARRY C. LYNN, DIRECTOR, OPEN MARKETS PROGRAM, 
                          NEW AMERICA

    Mr. Lynn. Thank you, Chairman Salmon, and thank you to the 
other members of the committee. I would also like to submit 
written testimony.
    Mr. Salmon. Without objection.
    Mr. Lynn. The Obama administration's pivot to Asia was a 
grave mistake. I say this not because I believe we can ignore 
Chinese provocations in Asia; we cannot, either in the South 
China Sea or the East China Sea or anywhere else. The pivot was 
a mistake because it focused mainly on countering military 
power with military power, but ignored the complex set of 
threats posed by China's use of trade power. China is a 
mercantilist nation that wields many political and economic 
tools to concentrate control over industrial capacity. Chinese 
leaders do so to provide jobs for their people, and to 
concentrate more money, hence more power in their hands. They 
do so also to be able to exert influence over nations that 
depend on that capacity, including the United States.
    Over the last 5 years the Obama administration did nothing 
to address growing U.S. dependence on China for goods that 
Americans need every day; things like drugs, chemicals and 
electronics. On the contrary, the administration proposed a 
trade deal, the TPP, that if approved, would only have shifted 
certainly vital industrial capacity further into Chinese 
control.
    Extreme concentration in China of vital industrial capacity 
exposes the United States to coercion by China, and may 
actually increase the likelihood of conflict by tempting 
Chinese leaders to take risks they would not otherwise take. 
Extreme concentration of industrial capacity by creating 
numerous single sources of supply, also raises the danger of 
cascading industrial crashes, much like the ones that crippled 
world production after the great Japanese earthquake of 2011.
    Liberal trade has served U.S. interests in many ways since 
the Second World War, but in recent years, the uncontrolled 
shifting of jobs from the United States overseas has harmed 
millions of Americans. During this period, our national trade 
deficit has piled up dangerous levels of debt, and has provided 
Chinese leaders with cash they can use to increase China's 
influence in the world and to reduce America's. But to 
understand the full extent of the danger posed the radical 
shift in trade policy in the mid 1990s, we must look also at 
the structure of supply chains. We should study what exactly is 
made in China, and how much of any vital good comes from China. 
Looking at supply chains is what allows us to map our 
vulnerabilities in a time of conflict, and a way to judge 
whether the pivot to Asia was well-designed.
    Twenty years ago, the United States depended on China for 
nothing that we needed day to day. But the U.S. embrace of WTO 
postnational trade policy in the 1990s freed China, often in 
alliance with large U.S. corporations to use trade power to 
consolidate control over many assembly activities and 
industrial components. This includes the basic ingredients for 
some of the Nation's important drugs, including antibiotics and 
some of the most vital inputs in our industrial food system 
such as ascorbic acid.
    Given that private corporations often run their supply 
chains on a just-in-time basis in which goods are produced only 
as fast as they are consumed, there are often no backup 
supplies anywhere. The United States has long been in the 
practice of providing trade sanctions to other nations to 
achieve political ends. This includes, in recent years, North 
Korea, Iran and Russia. These sanctions are often highly 
effective. In 1956, the United States used trade sanctions to 
force Britain and France to pull their military forces out of 
Egypt after they attempted to seize the Suez Canal.
    The extreme concentration of industrial capacities in China 
give leaders in Beijing the ability to impose similar sanctions 
on the United States in the event of an actual conflict, or 
even in the run-up to a potential conflict. What would the 
United States do in the event of such a cutoff of vital 
supplies? Would we try to tough it out? Would we cede to 
Chinese demands? Would we escalate to the use of cyber or 
military power? How would the public react? In every case, we 
have no idea what the answer might be. It appears that no 
agency of the U.S. Government has studied, in any depth 
whatsoever, the issue of U.S. industrial dependence on China.
    Liberal U.S. trade policy in the half century to the mid 
1990s helped provide the foundation for a period of 
unprecedented peace, and prosperity, and stability in the 
world. It is now clear that the extreme changes to U.S. trade 
policy in the 1990s upset those balances, in large part, by 
paralyzing the United States' ability to counter the 
mercantilist policies of China, and thereby to prevent a 
dangerous concentration of capacity, control, and power. Rather 
than waste more time on the TPP, or to attempt to treat a trade 
problem with military power, as we are largely doing with the 
pivot, the U.S. Government must figure out how to lessen our 
extreme and growing dependence on industrial capacity located 
inside China in ways that would make our Nation, indeed, the 
world as a whole, more politically and economically secure. 
Thank you.
    [The prepared statement of Mr. Lynn follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
                              ----------                              

    Mr. Salmon. Thank you. When I first came to Congress in 
1995, Warren Christopher was the Secretary of State. And I was 
on this Foreign Affairs Committee, a brand new member, and 
having done a lot of things in China and Taiwan, I'd been a 
missionary for the Mormon Church in Taiwan, the same time Jon 
Huntsman was, back in 1977 to 1979. So I remember asking the 
question of Mr. Christopher, Secretary Christopher, what is our 
policy toward China? And he said, well, it is strategic 
ambiguity. I listened to that and I tried to understand it, and 
I tried to understand it. And I guess they came up with the 
idea, that we basically just say that if you do something, we 
are not sure what we are going to do, but we will let you know 
afterward. That never worked in any other relationship I've 
ever had. I don't know why we think it works with China. But it 
has been the policy of multiple administrations to practice 
strategic ambiguity.
    Dr. Ellings, you said that we needed more clarity. Where 
can we be more clear on things? And has strategic ambiguity 
served us well?
    Mr. Ellings. I remember a Herblock cartoon when 
Christopher--I am giving away, I guess, our mutual ages here--
but in any case, right after his first trip to China there was 
a Herblock cartoon in which Christopher was sitting before the 
President reporting, and his head was in his lap. China had 
basically eaten his shorts. But in any case--yeah, you might 
not be surprised, that I think we have a lot of specific things 
to do. I would start, number one, I mean, our credibility is 
everything. We need to rebalance truly, which means to end 
sequestration and make the investments we need to make 
appropriate responses to the challenges. We have not done a 
strategic assessment that is realistic, and we need one.
    Credibility, as I said, is everything. We have got to work 
so hard with our allies, and win their unambiguous alignment 
with us.
    I think also, we have to do something once we do the 
strategic assessment we--they are very specific things, UUVs, 
UAVs, more subs. We have to invest in these things. Burden 
sharing, frankly, has been raised by the President-elect; it is 
not unreasonable. I think our allies understand their common 
interest with us. I think as we define new things ahead, 
those--the burden sharing can proceed. And number one of 
anything else, I would put in THAAD, and anything else we need 
with regard to North Korea, and simply tell China, We are going 
to do this until you figure out that it is in your interest to 
end your support of their nuclear program. Only China has that 
capacity, and we have got to get THAAD in there and whatever 
else. It is the first leverage we really have. And so I am a 
huge, huge supporter of that. I can go on. Anyway, on the 
military side, that is what I----
    Mr. Salmon. I actually share your enthusiasm for that. And 
one of my concerns is with some of the political problems that 
President Park is facing in South Korea that might jeopardize 
our deployment plans. I hope not; I hope this is something that 
the new administration really pushes, because we have done 
nothing to properly motivate China, who is the 800-pound 
gorilla in those Six Party talks with North Korea. North Korea 
has an overdependence on them for energy and food, and they 
could make the difference, but they have been unwilling to so 
far. And I think that motivates them in the right direction.
    Mr. Ellings. I totally agree with your concern about the 
situation domestically in South Korea is jeopardizing that 
deployment. So we need a plan B. We need the deployment. If it 
is not on the peninsula, then where is it going to be? It is 
our only source of leverage, and frankly, we have to defend our 
allies. We will not be credible. This is a real threat. It is 
not theoretical; it's not down the road; it is the kind of 
poster child of the failure of the pivot.
    Mr. Salmon. Ms. Currie, you talked a little bit about human 
rights. I remember when I first came to Congress, one of the 
raging debates was every June, we had Jackson-Vanik, where we 
would debate most favored trading status for China. And every 
year, it was kind of the same thing. And I remember when we had 
to push for PNTR, permanent normal trade relations with China. 
I think I had a private debate with Mr. Rohrabacher, and I 
remember saying to him that if we passed PNTR that because of 
constructive engagement, we would see phenomenal improvements 
in human rights and the like. I had just attended, not long 
before that debate, a hand-over ceremony for Hong Kong, and I 
had predicted that that would be a smooth transition, it really 
would be one country, two systems. And Mr. Rohrabacher, I will 
say to you right now, with egg all over my face, I was wrong. 
Those changes didn't materialize, they did for a time, under 
President Jiang Zemin, I think that he carried on a lot of the 
visions of Deng Xiaoping, and I think that he moved in the 
right direction. But the two presidents subsequent to him moved 
back the other way and they increased their iron grip on the 
people and reversed, I think, some very positive human rights 
improvements.
    And so I ask you, Ms. Currie, without putting Jackson-Vanik 
back in place, I am not sure whether that is possible, how can 
we do an adequate job focusing on the issues of Hong Kong and 
their self-determination and human rights abuse and all the 
other things we really care about; how can we do that 
effectively?
    Ms. Currie. I was a young congressional staffer during 
those discussions, and staffed one of your colleagues, 
Congressman John Porter, who joined you on that trip for the 
hand-over and engaged in these frequent discussions with Mr. 
Rohrabacher, and with you at that time. And there was a lot of 
genuine soul searching, I think, on both sides. I think that 
there was good faith belief on both sides, both against PNTR 
and in favor of it. There were many people who genuinely 
thought that their view on that was the way to improve the 
situation in Hong Kong.
    I have recently had a number of conversations with a friend 
of mine, Jim Mann, who wrote a wonderful book about 10 years 
ago called The China Fantasy, that kind of talked about how we 
all wanted to believe that economic liberalization would bring 
political liberalization in China. I think that it comports 
with our values and with our ideas about how our own country is 
set up, and we just kind of instinctively appeal to people.
    Unfortunately, we then didn't follow up by doing any of the 
things that could have actually made that a reality. And by--
and that the opposite has happened, that the economic 
liberalization has strengthened the regime by giving it more 
tools for oppression, made it more powerful and more 
influential in the world. And now we have to deal with that 
reality. But the tools actually remain essentially the same 
going forward.
    First of all, I think one of the--like I was saying before 
about the pivot, one of the fundamental mistakes was--and my 
colleagues sort of alluded to this here, that we tried to 
compete in the region in areas that are strengths for Beijing 
and relative weaknesses for us, for instance, on the economic 
playing field, and trying to displace China as an economic 
partner in the region somewhat. Whereas, you know, these things 
may or may not--we can argue about the relative strength of the 
U.S. and China and economics and military in the region. But 
one place where we clearly have an advantage over Beijing is on 
our values and our ideas. And yet, we abandoned that playing 
field for the past 8 years; we just left it there and didn't do 
anything.
    What is remarkable when you travel around the region and 
get outside of China, within China, I just have to kind of set 
it on the side for now, but our ideals, even when we fall short 
of them ourselves--I am talking about human rights and 
democracy--are far more attractive to the people of the region 
than Beijing's authoritarian ideals, which are only attractive 
to other authoritarians. And when we stop talking about those 
ideas, and we stop defending the international order, people 
notice. It has an effect on them and their willingness to 
defend those ideas also. And this goes to trade, it goes to 
human rights, it goes to a whole host of issues that then make 
the whole problems harder for us, and open more doors for 
Beijing to have more influence in more countries in the region.
    So I think that, kind of, as first principles, we have got 
to get back to proudly saying, yes, the United States believes 
in these ideas. And even when we don't always live up to our 
ideals, they are still our ideals, and we are willing to defend 
them and fight for them, not just rhetorically, but by other 
means as necessary, and that is where the resources that Dr. 
Ellings talked about come in, and being able to back up or 
commitments to our allies, privileging relationships with 
allies that share our values, privileging not just military 
alliance relationships, but also trade relationships with those 
who share our values, which then are also easier because we 
have shared platforms for understanding how to get along with 
each other, and trade with each other, and then backing those 
up with real meaningful things, and having consequences on the 
other side for those who don't share our values.
    Mr. Salmon. Thank you very much. I recognize Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    As I look back on the last 8 years, there are some areas 
that I think have been pretty successful. Obviously, I am a 
firm believer in the pivot to Asia. I do think we can look at 
kind of the renewed vigor in the U.S.-India relationship as an 
area of opportunity, not necessarily a straight shot, but 
clearly where we are today compared to where we were 8 years 
ago, but the opportunities. Some of this is on the Indian side 
with the ascendancy of Prime Minister Modi, and some of the 
reforms he is trying to make domestically. That is clearly an 
area that I do think we have had some success. That said, it is 
a region fraught with challenge. And I know many of us sit with 
an open mind with the incoming administration, you know, and 
are very open to how they will approach the region, but they 
are going to have to hit the ground running. I mean, we have 
talked a lot about China. We have touched on the complexity in 
North Korea. The internal challenges that are facing Korea as 
they address some of their political turbulence.
    We look at a new administration in the Philippines. We 
still got major unresolved issues in the South China Sea and 
how to approach that from a position of strength. And that is 
an area that I have disagreed with the administration on, I 
think. It is much more difficult for us to resolve the South 
China Sea today than had we approached it much more 
aggressively 1 year, or 2 years ago. With that said, we are 
where we are. And going forward, I think there are a couple of 
things that we have to do and the panel has touched on the 
importance of reassuring our allies about our commitment to the 
region.
    Our economic commitment, our diplomatic commitment, the 
commitment of our military assets as well. I think it is very 
important not to be ambiguous about our commitments to our 
allies, but to be very clear that we are there with them.
    We have to understand that it is going to be a shared 
commitment, with countries with similar sets of democratic 
values, you know, countries like Australia, New Zealand, et 
cetera, that it won't be the United States in this commitment 
by themselves. It will be a shared commitment.
    We also have to be--you know, the TPP is where it is at. As 
someone who supported the President's ability to go out and 
negotiate the deal. We are where we are.
    And there is a lot of rhetoric on the campaign trail on 
both sides. I think we have to explain the benefits of opening 
up global markets to our own domestic, you know, community 
first, to our workers and make sure if we are negotiating these 
deals and moving forward, that we are explaining the benefits 
in job creation, that people are understanding that. And that 
everyone, you know, from the frontline workers to the 
shareholders are benefiting equally from, you know, opening up 
these markets. But the reality is, we can't withdraw and have 
an isolationist policy. These are the fastest growing markets 
in the world.
    On a fair playing field, I will put U.S. companies and U.S. 
workers up against anyone. The criticism of prior deals and 
perhaps even TPP is because we weren't always on a fair playing 
field. And that was fine maybe in the 20th century when we 
could be a bit more benevolent, we could, you know, allow 
countries like Japan and others to rebuild. But we are in a 
competitive global environment now. We have to make sure that 
the deals we are negotiating are fair and balanced, not just 
for the countries we are trading with, but for our own workers.
    I have taken up a lot of my time without asking a question.
    You know, maybe, Dr. Scissors, you talked about the danger 
of having an isolationist trade policy. And maybe if you could 
just touch on some that for our own domestic population, why 
that would be a bad--this would be a bad time to withdraw from 
the world.
    Mr. Scissors. Well, I will try to do so quickly. I think--
and also because you touched on part of this, these are the 
fastest growing economies in the world. The Philippines is 
probably number one now. India, because of recent internal 
steps is probably going to be number two. Vietnam is there as 
well. Indonesia is a little lower, but it is also 250 million 
people. That is a nice market.
    If we want opportunities for our workers beyond the 
American market, the American market is the most important in 
the world, but if we want to add to that, the Asia-Pacific is 
where it is at. And I think, you know, everybody on this 
committee understands that.
    So I think what you want to say is use some of the language 
that people have used so far, which is to say 1 billion more 
consumers. You have 350 million consumers in the U.S. You have 
three times that many more that you could add, to give people 
some idea of what is out there. But, and this is where we 
haven't succeeded, couple that with the concrete steps we are 
actually taking to take advantage of it.
    I am picking on the Obama administration a little bit here, 
because I am trying to make a larger point, which is when you 
talk about markets and you talk about dynamism, you then don't 
go back to talking about diplomacy and strategic gains. That 
doesn't deliver gains to American workers. You have to say what 
is in the agreement is not a rule that we make instead of 
China. What is in the agreement is rules that open our markets 
and get us the following benefits.
    And I think what is missing and what might be easier, as we 
discussed here and as has been discussed in the campaign, it 
might be easier to do this bilaterally. It was a really 
difficult undertaking the Obama administration went to bringing 
such disparate countries together, Japan, Vietnam, Canada, 
Peru. I mean, this is really hard. And so maybe the way to do 
this both in terms of success, the solidity of the agreement 
and the communication is to say, look, let's simplify it. This 
is one country that is growing rapidly and has a lot of people; 
there are a lot of opportunities for us, this is concretely how 
we are going to do it.
    I do not, as I said, fault the Obama administration at all 
for trying TPP. From the country's standpoint, we need to learn 
why it didn't work. Why both major presidential candidates 
opposed it. And my response is, we couldn't deliver concrete 
economic benefits. We do this bilaterally, we can't necessarily 
have the giant benefits you are talking about, but step-by-
step, start with one bilateral agreement, add another. Who 
wants to negotiate with us first.
    As Kelley said, who are our best partners in terms of 
values? I think we can go back and say, look, each of these 
agreements are with good partners that have created 
opportunities. Each step may be small, but we are heading 
toward the Asia-Pacific being open, and all that potential 
benefit that everyone here sees.
    Mr. Salmon. Thank you.
    Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman. I am going to miss 
you.
    Mr. Salmon. I will miss you too.
    Mr. Brooks. I hope things go well in Arizona.
    Recently, President-elect Donald Trump had a telephone 
conversation with President Tsai Ing-wen of Taiwan. And many in 
the news media and diplomatic community went apoplectic. I 
would like for you to, please, share your view on whether 
Donald Trump's phone call with the Taiwan President was wise or 
unwise, advanced or retreated the interests of America? And I 
will just work my way across.
    Dr. Ellings?
    Mr. Ellings. Sure. I am very, very pleased to answer that 
question. As you say, it has been, I think, basically a tempest 
in a teapot. But, yeah, there has been a lot of hot air and so 
on expended on this.
    First of all, there are strategic as well as democratic 
value reasons you might want to refurbish a relationship with 
Taiwan. China has put tremendous pressure on Taiwan. It is not 
in an enviable strategic position. At the same time, it has 
developed a remarkable democracy.
    I happened to be by the way, Chairman Salmon, also at Tsai 
Ing-wen's inauguration. There are strategic realities that 
strike fear in many Americans' hearts, but my view is, I think, 
a sober one that this actually--this call to a still President-
elect Trump is strategically useful, justified. There is no 
reason we can't have conversations while in the meantime China 
can act so aggressively and feel impervious to these kinds of 
things.
    Mr. Brooks. All right. Thank you, Dr. Ellings.
    And I am going to work around a little bit. Each of you 
have about a minute. But the folks on my right haven't had much 
time. So I am going to go to Mr. Lynn then Ms. Currie and to 
Dr. Scissors.
    Mr. Lynn?
    Mr. Lynn. I basically agree that the President-elect 
Trump's taking of that phone call was probably a good thing. 
And, you know, one of the things that all of these nations, in 
that region, have not been talking about but need to talk about 
is the fact that all of their industrial systems are so 
entirely interdependent. I mean, for the same reason that it is 
dangerous for the United States to--for the Obama 
administration to pretend that there might be a military 
solution in the South China Sea or the East China Sea is just 
as dangerous for the Chinese to believe that there is a 
military solution, vis-a-vis Taiwan.
    Any military action in that zone by the United States, by 
the Japanese, by the Chinese, will create an immediate 
disruption of supply systems on which we all depend, and will, 
within a matter of days, seize up the entire world's industrial 
system.
    Mr. Brooks. Mr. Lynn, thank you for your insight. I am 
trying to reserve some time for Ms. Currie and Dr. Scissors.
    Ms. Currie.
    Mr. Currie. Thank you. I think it was both the right thing 
to do and a smart thing to do for the reasons that my 
colleagues have indicated. And also because--you know, one of 
the things that drives me the most crazy, as a former State 
Department employee, is the tendency we have to use euphemisms 
and construct these, you know, world scaffolds around what we 
do that don't have any connection to reality.
    And with a single phone call, President-elect Trump and 
Tsai Ing-wen together--she had agency in this, which is another 
thing that people seemed to completely miss, that she was the 
other party on the other end of the phone call who made a 
decision to do this as well. But, you know, this is--they kind 
of blew that up a little bit. And that was very well done and 
warranted, I think.
    Mr. Brooks. Thank you.
    Dr. Scissors?
    Mr. Scissors. I will be brief. I don't really care about 
the phone call. What I want to see is what U.S.-Taiwan 
relations are going to look like in a Trump administration. If 
the phone call says the Trump administration is going to be 
more active in talking to Taiwan about issues in the South 
China Sea, about arms sales, about what I would like to talk 
about, which is improving the economic relationship, that is 
fantastic, then it is a great idea.
    If it is just something that occurred while he is still a 
private citizen, and we don't act with the Taiwanese, then it 
doesn't mean anything and it doesn't add up to anything. I 
would even say, I am perfectly happy talking to the mainland 
while we are talking to Taiwan. They want to be involved in the 
conversation, fine. As long as the U.S. is talking to Taiwan 
figuring out where we can cooperate more, that is what matters. 
If this was the first step, great.
    Mr. Brooks. All right. Thank you for your insight.
    Mr. Salmon. Thank you.
    Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Thank you all for being here.
    I am going to keep my question brief, because I would like 
to hear responses. But my question is about North Korea. I 
represent Hawaii. We are in the middle of the Pacific and 
within range of North Korea's intercontinental ballistic 
missiles. And obviously, the continued progress that they make 
in miniaturizing their nuclear weapons is deeply, deeply 
concerning.
    Everyone talks about how essential China is to the 
denuclearization of North Korea, but very few people have any 
concrete ideas on exactly how to get China to take action, to 
actually change the dynamic here. So if each of you could just 
comment briefly on that question and taking into account what 
is happening on the peninsula and the relationship between the 
peninsula and Japan and China and us.
    Mr. Ellings. Shall I start?
    Ms. Gabbard. Yes.
    Mr. Ellings. Thank you so much. Well, you just kind of 
asked me to talk about my favorite subject. I have been writing 
and thinking about this literally for 30 years.
    And so I think it boils down to this--by the way, I live in 
Seattle. And Seattle also, in those concentric rings, has JBLM, 
which are forces to reinforce the peninsula. The Bangor Trident 
Missile Base, we are just like you, a number one target. So I 
feel it personally.
    My view, as I stated earlier, is that the clearest thing we 
can do, in which the Chinese have obviously signaled they would 
like us least to do, is get THADD into South Korea. And I would 
put in a broader antimissile system combining Japan at sea and 
on the peninsula. We expressed earlier concern that President 
Park's difficulties put at risk our ability, perhaps, next year 
to deploy THAAD there. That is a terrible development. I do 
worry about that. So we have to have plan B and C here.
    But we have got to do it. And I will tell you not having 
learned from the INF issue and what we did in the early 1980s, 
that is something I think we all need to study here. If we had 
a robust antimissile system in northeast Asia, I think China 
would do what is necessary to denuclearize the north.
    Mr. Scissors. I don't mean to avoid your question, but it 
is security, so I am going to yield to my colleagues.
    Ms. Currie. I would add a couple of things. Go after the 
palace economy more vigorously--we have not implemented all the 
sanctions, the economic sanctions tools that we have in our 
disposal to go after North Korea's palace economy and hold the 
Chinese to account for their role in propping up the palace 
economy that surrounds Kim Jong-un and the people around him, 
and allows them to live in a lifestyle that is completely 
attenuated from the way that the rest of the North Korean 
people live.
    So there are many things that we can do to make them more 
uncomfortable and put pressure on the regime in that way. And 
the Chinese don't like it, but, again, as Dr. Ellings said, we 
need to just tell them, look, this is what we are going to do. 
You aren't being helpful, and so we are taking these things 
into our own hands.
    And then the other thing that I would do is throw 
everything we have diplomatically, politically that we can 
behind the U.N.'s commission of inquiry on human rights in 
North Korea, because that inquiry has gotten under the skin of 
the Kim regime in a major way. They really don't like being 
brought up in the U.N. on human rights charges, in this way, 
and it really bothers them. And I don't think we have fully 
explored the limits of how we can take advantage of that 
process.
    The Chinese also don't like having to defend them at the 
U.N. and having to expend diplomatic capital on the North 
Koreans at the U.N. on human rights.
    Ms. Gabbard. Thank you.
    Mr. Lynn. Just adding to what Ms. Currie said, is supply 
lines matter. And one of the ways to exert pressure upon the 
North Koreans is to really push the Chinese to become serious 
about putting pressure on the North Koreans.
    As we may remember in the run-up to the Iraq war, North 
Korea was acting in an extremely belligerent way, and there was 
a sentiment that they might have taken advantage of the focus 
of the U.S. military in the Middle East to engage in some kind 
of action in their area, and the Chinese cut off the supplies 
of a number of goods into North Korea, and that brought the 
North Koreans to heel.
    Ms. Gabbard. Thank you.
    Thank you, Mr. Chairman.
    Mr. Ellings. I just wonder if I could just add something 
here----
    Ms. Gabbard. Sure.
    Mr. Ellings [continuing]. That I think is really important?
    I think no pressure directly on North Korea will work. 
Direct pressure on North Korea, no matter how we have done it, 
their regime requires the nuclear weapon. And so there is no 
way direct pressure without pressure on China is going to work.
    And China's interest--if we don't put enough pressure on 
China, China's interests are in North Korea as a buffer, and as 
North Korea as an irritant to us; it pins our troops down; it 
keeps our attention. If there is a war, it is another front. So 
North Korea is a core interest of China. And so what we have to 
make clear to China is we understand it is a core interest, but 
its nuclearization is our core interest.
    Mr. Salmon. You know, it is interesting, they say that the 
reason they are hesitant to jump in and do what needs to be 
done is that it would destabilize North Korea, and there would 
be this onslaught of refugees coming across the North Korean 
border into China.
    I think the real reason is that they fear a one Korea. They 
fear a unified Korea, and they fear an increased U.S. presence 
that is on the peninsula. So I think that is what the real 
issues are. And so I think that the provocative answers that 
have been given about motivating China are real, and they would 
work.
    One of the things I have been pushing for the last year is 
the deployment of THAAD, and I think, as you said, Dr. Ellings, 
that increasing that to possibly Japan as well and other 
ballistic defense systems is absolutely imperative.
    China is not going to care unless you make them care. And 
they are not going to do it out of the goodness of their 
hearts. They are only going to do it if they feel compelled to 
do it, because not doing it costs more than doing it. That is 
what the answer is.
    Mr. Rohrabacher--oh, have I missed you? I am so sorry.
    Mr. Perry. General Perry.
    Mr. Perry. Thank you, Mr. Chairman. Doing, as always, a 
fabulous job.
    I am thinking about the conversation, initially, strategic 
ambiguity. And I am just wondering what appears to be--what is 
the President-elect's propensity for unpredictability. You 
know, strategic ambiguity in the sense that it was described by 
the chairman was essentially--we didn't know what the heck we 
were doing. But when you want to be ambiguous, knowing that you 
want to be that, is probably a strength, right?
    So my question is, are there specific conditions that we 
should articulate like a floor or ceiling with China? And then 
remain ambiguous about some other things where maybe we 
remain--we maintain some flexibility to get them to head where 
we want to go? And I just want to--I would like to, actually, 
start with you, Mr. Lynn.
    What are your thoughts on that? Are there some specific 
things that we should articulate, and what would they be?
    Mr. Lynn. Well, one of the things that we absolutely want 
to articulate is that we--to increase the security of both the 
United States and China, to increase the security of all the 
nations in the region and indeed of the world, we want to 
reduce the number of cases in which all key components are 
located in China. And that is going to require the cooperation 
of the Chinese.
    When you have all of the certain kind of chemical industry 
built up in China, the Chinese can do a lot to prevent us from 
moving any of that capacity abroad. We think of industrial 
activities as something that moves around. That is not the 
case. But it is in everybody's interest that industrial 
capacity be much more widespread. It creates a resilient 
system, and it means that when mistakes are made, as they will 
inevitably be made in human society, bad things are less bad.
    Mr. Perry. Ms. Currie.
    Mr. Currie. Well, I will talk about something that we 
continually articulate as kind of a floor in the region with 
China, which is our statement that we will not accept China 
changing the status quo on Taiwan or militarizing the South 
China Sea by force or coercion. And we make these statements 
all the time, but then we don't actually do anything to back 
them up.
    So I think we have floors. I think we have articulated them 
over time, but the Chinese don't actually see them as floors. 
It is not the problem that we don't have floors, it is just 
that they are very holey and not very stable and not very 
sturdy and not viewed by the Chinese as meaningful.
    And so I think, again, being consistent, being public about 
what these basic things are is one thing, but then having 
meaningful consequences when the Chinese start to push on them 
and stomp on them and try to poke holes in them and making sure 
that we are doing things to push back.
    And whether it is strengthening Taiwan's defenses, 
deploying THAAD, being more active in our regional diplomacy 
within ASEAN about the South China Sea issues, to push back on 
the salami-slicing tactics, negotiating more bilateral 
investment treaties, more bilateral trade agreements to 
encircle China with more open economic freedom, any and all of 
these things. You know, it is not an either/or we need to----
    Mr. Perry. Do you think that our inability as maybe you 
describe it--and so if I am describing it incorrectly let me 
know--but our ability to stand firm on how we articulate the 
barriers or the constraints that we have, is that a function of 
our governance, our form of governance, that we say one thing 
but we have a hard time--it requires legislation; it is not 
something the executive could do unilaterally? Is that what the 
deal is, or is that we talk big but then we don't follow 
through?
    Mr. Currie. I think it is the latter. We have all the 
legislative tools in place. You have the Taiwan Relations Act, 
you have a Tibet Policy Act; you have a raft of legislative 
pieces over the history of the past 25 years.
    Mr. Perry. So it would be your opinion that the executive 
can make all the difference in this instance?
    Ms. Currie. I think forceful leadership that is principled 
and consistent and actually has a plan for when things don't 
work out according to the fiction they have created in their 
head----
    Mr. Perry. Okay.
    Dr. Scissors?
    Mr. Scissors. Yes, I have two specific answers. And one is, 
I think we have already provided the ceiling. America's 
commitments to open markets have helped. It is not the main 
thing, but it has helped raised hundreds of millions of Chinese 
out of poverty. We have played our role in helping China's 
development for the past 35 years. So I don't think whatever we 
do going forward--anyone can doubt that the U.S. has tried to 
accommodate China and done well for the Chinese people in our 
policies to now. Where I would put the floor is to enforce 
American law. The Chinese steal intellectual property. They are 
breaking our law.
    I will give you a small case but one that infuriated me. We 
had a Federal court a few months ago say the Chinese vitamin C 
makers can violate U.S. antitrust law, but they were told by 
the Chinese Government to do it, so they have sovereign 
immunity. That is outrageous. I am not a lawyer. I have no idea 
about the legal foundations of the decision. I am saying as a 
matter of policy, so the Chinese Government can tell Chinese 
companies to break U.S. law and it is okay?
    I think our credibility on accommodating China to this 
point is extremely high. I can't imagine another country that 
would have run the global economy the way we did that would 
have helped the Chinese.
    And the floor comes from, we have laws. You have to obey 
them, and I don't want to hear excuses about the government 
told you or not.
    Mr. Perry. Quickly, Dr. Ellings, with the chair's 
indulgence.
    Mr. Ellings. Yeah, two quick comments. On the question of 
IP theft, the Congress and the President signed a bill that 
provided the power to respond with all the powers that the 
President has to stop terrorists in using the banking system 
and so on. The President has the power to stop IP thieves 
overseas and has not done it, so we have no credibility.
    Number two. This is really a kind of the most important, I 
think, strategic point to make. Ambiguity is never what you 
want to have in a strategic situation, ever, unless you are 
forced into it out of weakness.
    And so what my concern is, since we have not decided on a 
military strategy in Asia, we have not figured out what, in my 
view is, a plan to show unambiguously that with our allies we 
can win a battle in the commons without striking China 
directly, that is credible. If we have to strike China 
directly, then we are raising the specter of them striking back 
at our homeland. So we need unambiguous capacity to win over 
the commons, and that is the critical strategic issue facing us 
today.
    Mr. Perry. Thank you, Mr. Chair.
    Mr. Salmon. Thank you.
    Mr. Rohrabacher.
    Mr. Rohrabacher. This ambiguity stuff, I will tell you 
that--let's face it, when you talk about ambiguity, what they 
really mean is they don't know what the hell they are going to 
do. And it is not we don't know what our reaction are or we 
have a reaction that we don't want the enemy to know. We don't 
know.
    I have been saying that for a number of years, and no one 
has ever come forward and say, well, let me tell you the secret 
plan. No one has ever done that.
    It is fitting from the last hearing of this subcommittee 
that we note one thing, that we have been talking about the 
Pacific today and very little reference has been made to Japan. 
And Japan is the most important player in the region. And 
Japan, if there is going to be peace and prosperity, the United 
States has got to maintain its incredibly positive relation 
with Japan. And let us not end this hearing without reaffirming 
that because--and let me just note, and how could we actually 
send messages, then, in terms of China or North Korea? Well, I 
bet if we decided to aggressively and publicly support the 
rearming of Japan and the reintroducing of the Japanese Navy 
into the Pacific rather than putting that entire burden on the 
American taxpayers, I think there would be a message there, and 
it would be a message they would pay attention to.
    So basically, perhaps as well, when the Chinese start 
stealing all of our technology, maybe then we could go to Japan 
and have a very open and--how do you say--mutually beneficial 
treaty that would then show that these other people are being 
left out because the Japanese are playing honestly with us now 
and are trying their very best to be good friends. So 
recognizing the role of Japan, I think, is essential when we 
try to plot out what is going on in the future.
    Mr. Scissors, I certainly agree with you totally about the 
TPP. And let me just ask you whether or not you have looked at 
the patent section of the TPP? I was told over and, again, oh, 
no, there is nothing in there that would change the patent law 
of the United States.
    Is it still in there, the provision that eventually I saw 
there, that said that we will endeavor to change our patent 
law, which right now means that when an inventor files for a 
patent, that patent is secret, until that--that patent 
application is secret until it is issued, until the patent is 
issued?
    The TPP that I read said we will endeavor to change that 
rule, and after 18 months, we are going to publish for the 
whole world to see our patent applications even before the 
patent is granted, which I would label the Steal American 
Technologies Proposal. Is it still in there?
    Mr. Scissors. Well, so--the answer--there is an overarching 
answer, which is the Congress can always override our trade 
agreements. There is a clause in all of our trade agreements 
that this will not infringe on the Congress' ability.
    Now, what you are--I think this is still a real issue. If 
the default changes, if the Congress must do something to 
change American law to a certain area instead of just do 
nothing, that has an impact on the U.S.
    I think the big issue in data protection is most of our 
partners in the TPP and around the world don't protect data in 
exactly the way you are talking about, the way we would like, 
and the TPP doesn't solve that problem.
    Mr. Rohrabacher. Okay.
    Mr. Scissors. And I don't want it to set a precedent of not 
solving the problem going forward.
    Mr. Rohrabacher. Okay. Well, let me accept that. But let me 
also accept that anybody--because I fought--as my colleagues 
know, I have fought these efforts by multinational U.S. 
corporations to change the patent law for the last 25 years. 
And one of the first things, fights, I was in was to make sure 
American inventors wouldn't have to publish their patent 
applications until they got their patent issued. And we won 
that here, and I see no reason for it to be in the TPP 
whatsoever.
    In terms of what we need to do in terms of China and such--
and thank you very much for noting that over these years I have 
actually been very aggressive in talking about predicting what 
would happen is if we would treat China as if it was any other 
democratic state.
    Japan has a great democracy. They protect people's rights. 
China doesn't do any of that. But, yet, at times we end up with 
trade policies and treating China better than we do Japan. How 
ridiculous is that? And what has it resulted? It has resulted 
in--because, again, others were making the argument, and thank 
you for acknowledging that, that if we just really treat China 
well, they are going to come out and be friendly to us, and 
they are going to become liberals. I call that the hug-a-Nazi-
make-a-liberal theory, which has been disproven over and over 
again.
    So I think that what we are doing now is we have to be very 
realistic. I think we have a new President that is basically 
not going to be seen as someone--as a faint-hearted leader. 
This is not what Donald Trump is going to be. He is going to be 
a strong leader. He is also going to appreciate friends. It is 
little simple things like that. And like, if it is not in the 
interest of the American people specifically, I am not going to 
do it. These are simple principles but, basically, they are 
pragmatic moves by a person of principle and of courage as 
well. So I am actually very optimistic.
    I remember when everybody went crazy over this Taiwan phone 
call. I was saying, they are sending the exact message to 
Beijing that we want to send them. We are no longer a bunch of 
pushovers here. We have people--we have a strong leader, and we 
are going to make sure the world is a safer place, and that the 
gangsters and dictators of this world better understand that.
    And so with that said, one of the other things that has 
made this a safer world is the hard work of people like you, 
Mr. Chairman. And we are all very grateful. And I am very 
pleased now to be the last witness before you take off. We 
started well over 20 years ago. And I don't know how much 
longer I am going to be here, I don't know where I am going to 
be, but I may end up surfing in California, just drinking 
tequila for the rest of my life, who knows. But the fact is the 
two of us started out a long time ago, and you have done a 
great job for our country. And I know this isn't the end of it. 
This is the end of this phase of that.
    So thank you very much. God bless you. There we go.
    Mr. Salmon. Well, let me just say that in many ways, this 
last hearing for me was very cathartic. I kind of started out 
my China experience as a missionary in 1977 to Taiwan. And I 
was there for 2 years. I was there when Jimmy Carter severed 
diplomatic ties with Taiwan, and I remember the reaction of the 
people there.
    I remember my heart being broken at the time, because I 
grew to love and respect the people of Taiwan so very much. And 
in the time since then, they have gone from an autocratic 
regime to a thriving democracy. At the time it was Chiang Kai-
shek's son that was the president of Taiwan, and there weren't 
freely held elections. Since that time, there have been--become 
one of the more robust democracies in the entire world.
    And I was there at the swearing in for Lee Ten-hui, and I 
remember at the time China lobbying missiles in the Taiwan 
strait. With our policy of strategic ambiguity, it was 
frustrating. It was very, very frustrating. But to be able to 
have a panel of experts such as yourself sit there and talk 
about credible, thoughtful solutions to moving forward and 
making that region of the world a prosperous place and a 
unified place was very cathartic for me. So I thank you from 
the bottom of my heart.
    This committee hearing was planned long before the infamous 
phone call over the weekend. But to hear virtually everybody on 
the panel say it was a good idea, it was a good thing, or it 
can be a good thing if the policy moves in the right direction, 
I think is a good message. And I hope that the press corps and 
this country is picking up on it, because I don't think there 
are any more talented people in their expertise on China, in 
fact, probably most are far beneath your realm.
    So thank you for your great ideas and your thoughts and 
your comments, and I greatly appreciate it.
    And with that, this committee is now adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
                                  [all]
</pre></body></html>
